                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM

Case Number: A04100062
                                                                   11        Page 1of 1



    This case was opened as a transfer from P-04090196 to pursue a n anonymous
    allegation (apparently data fabrication or falsification) that the subject1 submitted a
    manuscript to Nature and then withdrew it 1week later. The complainant alleged
    the subject withdrew the manuscript to avoid discovery the data were falsified.
    The complainant did not provide a copy of the manuscript, nor any other evidence to
    support the allegation. The subject's purported manuscript was submitted and
    withdrawn before being reviewed. Without any evidence to suggest otherwise, there
    are a multitude of reasons a n author may withdraw a manuscript; it may even be
    the author spotted problems with the data and wanted to correct them, but this
    action, by itself, does not imply the author committed research misconduct.
    Therefore, given the lack of supporting evidence, this case is closed.
